                               Closeout of M96070018


   A program director' informed OIG on July 10, 1996, that a PI (the complainant)2
had alleged intellectual theft, facilitated through a violation of the confidentiality of
the peer review process. The complainant alleged that two proposals3 he submitted
to NSF had been sent for review to a senior foreign scientist (the subject),4 and that
the subject used the complainant's proposals as a model to prepare a proposal that
he submitted to one of his country's funding agencies. The complainant added that
the subject told his successor as laboratory head (LH) and a junior faculty member
(JFM), both at a foreign university (KU),E to pursue this Line of research in order to
get results to complete the grant resulting from the proposal. The complainant
included various documents with his letter to OIG, including many of his group's
publications and several publications by the KU group. The complainant suggested
that it is not a good idea for NSF to share the best of US scientists' research with
their international competitors and that, specifically, the subject should not be
permitted to review NSF proposals.
    The complainant said that during the subject's visit to his university, the subject
told the complainant that two of his NSF proposals had been sent to the subject for
evaluation. OIG learned that the subject had reviewed two of the complainant's
NSF proposals.3 Although NSF discourages reviewers from discussing the content
of proposals they have reviewed, OIG concluded that the subject's announcement to
the complainant that he had reviewed two of his proposals was not a violation of
the confidentiality of the peer review process.
   Among the documents the complainant provided was a letter JFM sent the
complainant discussing a line of research that they were going to perform at KU.
This research was similar to research JFM had worked on when he was a
postdoctoral associate in the complainant's lab. JFM told the complainant that
KU's interest was to reopen an earlier study that the subject had initiated several
years previously. JFM stated that they recognized that there would be some
similarities with the complainant's research and they wanted to carry out a
complementary project without any friction. They were not planning to use the two
species that the complainant had studied, but rather, a third species within the
same genus. The complainant told OIG that this research project utilized his
conceptual framework.
    In this case, the existence of a similar research program does not support an
allegation of intellectual theft by one group from another. JFM was a co-author

   1 (footnote redacted).
   2 (footnote redacted).
   3 (footnote redacted).
   4 (footnote redacted).
   5 (footnote redacted).



                                      Page 1 of 2
                               Closeout of M96070018

with the complainant on publications in which the technique was utilized, and it is
reasonable that JFM would apply this methodology in future research projects.
Since the complainant's research technique was published, there is no restriction on
its use by other research groups. Also, JFM had said that the KU group was
continuing research originally started by the subject, who was the head of KU's
research laboratory at that time. In this case, the similarity in the research
programs could just as easily have arisen from JFM's participation in both
programs. OIG concluded there was insufficient evidence to support allegations
that the subject committed intellectual theft by utilizing ideas from the
complainant's NSF proposals that he received for review. OIG also concluded that
the subject had not violated the confidentiality of the peer review process.
   This inquiry is closed and no further action will be taken on this case.


cc: Legal, AIG-Oversight, IG




                                     Page 2 of 2
